U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


      ADMINISTRATIVE FUNCTIONS,
         TERRITORIAL COURT
        OF THE VIRGIN ISLANDS

             REPORT NO. 98-I-669
              SEPTEMBER 1998
                                                                           v-IN-VIS-001-98


             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                                  AUDIT REPORT
Honorable Verne A. Hodge
Presiding Judge
Territorial Court of the Virgin Islands
Post Office Box 70
St. Thomas, Virgin Islands 00804

Subject:    Audit Report on Administrative Functions, Territorial Court of the Virgin
            Islands ( TJO. 98-1-659)

Dear Judge Hodge:

This report presents the results of our review of administrative functions, primarily revenues
and expenditures, of the Territorial Court of the Virgin Islands during fiscal years 1996 and
1997. The objective of our audit was to determine whether the Territorial Court (1)
effectively assessed, collected, and controlled revenues for which it was responsible and (2)
expended funds in accordance with applicable laws, rules, and regulations.

BACKGROUND

The judicial power of the U.S. Virgin Islands is vested in a court of local jurisdiction known
as the Territorial Court of the Virgin Islands, which was established in September 1976 by
Act No. 3876. The Court was given full jurisdiction over local civil cases in 1991 and full
jurisdiction over local criminal cases in 1994. The Court has two divisions: one for
operations on St. Thomas and St. John and the other for operations on St. Croix. The Court
has six judges, who are appointed by the Governor, with the advice and consent of the
Legislature, for 6-year terms. One judge is designated by the Governor as the Presiding
Judge of the Court. The Court Administrator has oversight authority for the formulation and
implementation of all policies and procedures for the conduct of the Court’s business and
deals directly with budget, accounting, and court security issues. The Clerk of the Court is
responsible for oversight of the day-to-day operations of the Court’s Civil, Small Claims,
Family, Juvenile, Probate, Conciliation, Criminal, and Traffic Divisions, including the
cashiers, marshals, and court reporters.

As of October 1997, the Court had 261 employees. However, at the exit conference on
May 28, 1998, the Presiding Judge stated that the Court had 57 vacancies, including key
financial management, procurement, and personnel management positions, which affected
the Court’s operations in these administrative areas. The Court’s operating budgets totaled
$11.7 million in fiscal year 1996 and $15.7 million in fiscal year 1997. Actual expenditures
totaled $11.6 million in fiscal year 1996 and $14.6 million in fiscal year 1997. The Court
collects traffic fines assessed by the Police Department and various fees and fines assessed
directly by the Court and deposits those collections into the Treasury of the Government of
the Virgin Islands. These collections totaled $1.1 million in fiscal year 1996 and
$1.3 million in fiscal year 1997. The Court is exempt from the requirements of Title 3 1,
Chapter 23, of the Virgin Islands Code, which relates to procurements. However, its internal
procurement rules and regulations require the use of competition whenever “feasible and
warranted.”

SCOPE OF AUDIT

The scope of the audit, which was performed from September 1997 to January 1998,
included a review of revenue and expenditure transactions that occurred during fiscal years
1996 and 1997. We also reviewed the controls over equipment purchased during those fiscal
years.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of our review, we evaluated the internal controls over the assessment, collection, and
deposit of revenues; the expenditure of budget allotments; and related administrative
functions. The review did not disclose significant weaknesses related to payroll processing.
However, we found internal control weaknesses related to revenue collections, procurement
and property management functions, and other administrative functions, which are addressed
in the Results of Audit section of this report. Our recommendations, if implemented, should
improve controls in these areas.

PRIOR AUDIT COVERAGE

In August 1990, the Office of Inspector General issued the audit report “Administrative
Operations of the Territorial Court of the Virgin Islands” (No. 90-93), which concluded that
actions were needed to improve controls over (1) the approval of overtime; (2) the recording
and safeguarding of personal property; (3) the collection and recording of fines, penalties,
and other receipts; and (4) the disbursement of trust account funds. Our current review
disclosed that deficiencies in the areas of collections, property management, and
disbursement of trust funds still existed.
I



                                  RESULTS OF AUDIT
    The Territorial Court has made improvements since our 1990 audit report in carrying out its
    administrative functions, primarily with regard to controlling overtime. However, additional
    improvements were needed in the areas of revenue collections, procurement, expenditure
    control, and property management. Specifically, we found that (1) differences between
    collections and deposits were not reconciled, (2) funds held in trust for bail bonds were not
    disbursed in a timely manner, (3) expenditures from internal checking accounts were not
    controlled, (4) procurements were not made competitively, (5) employees did not account
    for travel advances, (6) personal long-distance telephone calls were made but not paid for,
    and (7) equipment was not adequately controlled. Governmentwide procedures for
    processing collections are contained in the Government Accounting Manual issued by the
    Department of Finance, and policies and procedures for controlling bail bonds and for
    procurement, travel, property management, and other administrative functions are contained
    in the Court’s internal procedures manuals. The deficiencies occurred because the Court did
    not provide sufficient oversight of its employees, did not implement adequate procedures,
    or did not enforce these procedures. Also, duties were not segregated, and physical
    inventories of property were not conducted. As a result, bail bonds of $130,000, some held
    for as long as 35 years, had not been disbursed to the appropriate third parties, and funds of
    $70,752 in internal checking accounts and regular operating funds of $8,590 were used for
    improper purposes. In addition, there was little assurance that the Court received the best
    prices for goods and services purchased; the Court was not reimbursed for an undetermined
    amount for personal telephone calls and for travel advances of $13,100; and the potential
    existed for property to be lost, stolen, or otherwise unaccounted for.

    Revenue Collection

    The Court has five cashiers (including a head cashier), who are responsible for the daily
    collections of traffic fines (which are deposited into the Road Fund); Court fees, fines, and
    penalties (which are deposited into the Government’s General Fund or various special
    funds); and funds representing small claims, bail bonds, civil judgments, executions,
    gamishrnents, trusts, and miscellaneous actions (which are deposited into the Court’s internal
    Miscellaneous Account). The Court uses its own computer-generated cashier receipts and
    daily summaries to record daily collections. The bank deposit slip forms (formally titled
    “Certificates of Deposit”) used by the Court are provided by the Department of Finance, and
    daily deposit information is typed onto the forms by the Court’s head cashier.

    Although the Government Accounting Manual requires that Government cashiers deposit all
    collections on a daily basis and reconcile daily collections to daily deposits, we found
    two instances, totaling $1,125, in which the amounts shown on the daily deposit slips and
    on the daily summaries of cash receipts and the official cashier receipts were different. For
    example, we found that although the St. Thomas cashier’s daily summary of collections for
    August 6, 1997, showed that $25 was collected, $475 was deposited on that date. We were
    unable to determine the source of the additional $450 that was deposited. We also noted that
    the word “VOID” was not written across the face of cashier receipts that were listed as

                                                  3
“voided” on the daily summary of collections. Further, the file copies of seven cashier
receipts for April 30, 1997, representing collections totaling $200, were missing and could
not be located by officials at either the Court or the Revenue Audit Section of the
Department of Finance. Although the responsibility for reconciling collections and deposits
was delegated to the head cashier, we believe that verification of the head cashier’s work by
the Clerk of the Court would minimize the types of discrepancies disclosed by our review.

Regarding the physical security of collections, we found that the collection area at the
Court’s offices on St. Thomas was properly safeguarded. However, at the Court’s offices
on St. Croix, the door to the collection area was not kept locked, allowing unrestricted entry
into the area. For example, we observed noncashier employees and employees’ family
members entering and leaving the collection area. When we told Court officials about the
inadequate security, the Assistant Court Administrator issued a memorandum to collection
personnel directing them to ensure that the collection area was kept locked and that
unauthorized personnel were not permitted access. At the Court’s offices on St. John, we
found that daily deposits ranging from $25 to $600 were not properly protected because a
night deposit bag and a security escort were not always available to the cashier at the time
of the evening deposits.

The Court should establish procedures to require that reconciliations of collections and
deposits are prepared daily by the head cashier and periodically reviewed by the head
cashier’s supervisor, voided receipts are clearly marked, and all receipts (including those that
are voided) are accounted for in numerical sequence. Additionally, the Court should attempt
to reconcile the $1,125 in differences that we identified between collections and deposits,
locate the missing receipts for collections made on April 30, 1997, and provide adequate
security to the cashier on St. John when making the daily evening deposits.

Internal Checking Accounts

The Court maintains four internal checking accounts, which are referred to as the
Miscellaneous, Utility, Jury Fees and Expense, and Petty Cash Accounts. The Utility, Jury
Fees and Expense, and Petty Cash accounts are funded through quarterly allotments from the
Government and are used to pay specific operating expenses of the Court. The
Miscellaneous Account is a revolving account in which monies from small claims, bail
bonds, civil judgments, execution of court orders, garnishments, trusts, and miscellaneous
actions are deposited for subsequent distribution based on the outcome of court cases.

        Miscellaneous Account. We found that the Court did not reimburse payers of cash
bail bonds that were not forfeited, even though the Court’s Procedures Manual states that
cash bail bonds should be disbursed to the bondee or bondsman upon ascertaining the status
of the related cases. Based on our review of the Miscellaneous Account, we determined that
cash bail bonds totaling $130,000, which were received by the Court during the periods of
1963 to 1975 and 1980 to 1987 (as long as 35 years ago), had not been appropriately
disbursed. This occurred because the Court did not have adequate procedures to ensure that
the appropriate Court officials were informed of the disposition of cases so that bail bonds
could be disbursed appropriately. A Court official also told us that the existing process for
determining the status of cases was “too time consuming.”

We also found that the Court improperly used $47,000 from the Miscellaneous Account for
operating expenses that were not related to court cases. In March and August 1997, a total
of $24,500 was paid from the Miscellaneous Account for the purchase of airline tickets to
be used by Court employees for official travel. In June 1997, $2,500 was used to pay for the
college tuition of a Presidential Scholar who was sponsored by the Court as part of a youth
crime prevention program. Additionally, in February 1997, $20,000 was transferred fi-om
the Miscellaneous Account to pay for the Court’s utility expenses. These expenditures were
not detected because the same Court official who maintains the Miscellaneous Account was
also responsible for certifying, authorizing, and approving all payment vouchers and for
signing the checks. A key element of an effective system of internal controls is the
segregation of duties, such as approving expenditures and making the actual disbursements,
among different employees. The segregation of duties reduces the risk of errors, waste, or
wrongful acts and increases the potential for detecting such acts if they occur.

The expenditures of $47,000 from the Miscellaneous Account should be reimbursed to that
account because funds in that account are held in trust for parties in cases being processed
by the Court. Additionally, the Court should establish procedures to ensure that bail bonds
and other trust funds held in the Miscellaneous Account are disbursed in a timely manner and
attempt to locate the individuals to whom the $130,000 in pending amounts should be
disbursed. Further, the Court should establish procedures to ensure that there is proper
segregation of duties between the individuals responsible for approving expenditures and the
individuals responsible for issuing checks from the Court’s internal accounts.

        Utility Account. The Court used funds of $23,000 allocated for payment of its
regular utility expenses for other obligations. Specifically, the $23,000 was used for rental
of equipment; supplies for cleaning, photocopiers, the jury deliberation room, and hurricane
preparedness; professional membership and conference registration fees; hotel expenses;
printing; postage, freight, and other delivery charges; laundry services; and other
miscellaneous goods and services needed for the Court’s regular operations. As with the
Miscellaneous Account, expenditures from the Utility Account were approved and disbursed
by the same Court official. The $23,000 disbursed for nonutility purposes should be
reimbursed to the Utility Account.

         Petty Cash Account. During fiscal years 1996 and 1997, the Court used a total of
$752 from the Petty Cash Account to (1) purchase personal items (such as birthday cards,
floral arrangements, wreaths, and savings bonds) for employees and their family members;
(2) purchase food for office functions; and (3) make various charitable contributions. The
Petty Cash Vouchers used to record the payments from the Petty Cash Account contain the
notation that “goods and/or services were purchased in accordance with applicable rules and
regulations.” However, Court officials said that there were no specific criteria for the use of
money in the Petty Cash Account. In generally accepted business practices, petty cash funds
are used to pay for small business-related expenses for which the preparation of a formal


                                               5
voucher and issuance of a check would be too expensive and time-consuming. Therefore,
we believe that these expenses should have been paid through voluntary donations by the
Court’s employees (see the section “Procurement” in this report). The Court should
establish procedures to define the types of expenditures that can be made from the Petty Cash
Account.

At the exit conference on May 28, 1998, Court officials said that disbursements for general
operating expenses were made from the Court’s internal checking accounts because of delays
by the Department of Finance in paying vendor invoices fi-om the Court’s General Fund
appropriation accounts. Court officials also stated that $27,000 had already been reimbursed
to the Miscellaneous Account and that the other amounts discussed in the report would be
reimbursed to the Miscellaneous, Utility, and Petty Cash Accounts.

Procurement

The Court is exempt by Title 3 1, Section 232(l), of the Virgin Islands Code from the
procurement requirements contained in Title 3 1, Chapter 23, of the Code. However, the
Court’s Property and Procurement Manual states that “purchases shall be made on a
competitive basis whenever feasible and warranted, including competitive negotiation.” The
Manual also requires that a record be kept of all written submissions and telephone
negotiations or discussions with competitive suppliers. However, the Court did not always
keep such records to document whether competitive proposals or price quotations were
obtained.

We selected for review a random sample of 63 requisitions and 284 miscellaneous
disbursement vouchers for purchases made by the Court’s St. Thomas/St. John and St. Croix
Divisions during fiscal years 1996 and 1997. Of the 347 procurement documents reviewed,
we found that for 60 purchases, totaling $238,000, the Court used “confirming orders,”
which means that the orders were placed with the vendors before the formal requisitions or
purchase orders were prepared and approved. For example, on August 8, 1996, the Court
purchased printing services at a cost of $2,320. However, the appropriate purchase
document was not prepared until October 1, 1996. In generally accepted business practices,
a formal purchase order is used to establish the specifics of the goods or services being
acquired, the cost and method of payment, and other provisions to protect the interests of the
purchaser and the vendor. However, the Court’s practice of acquiring goods and services
without a purchase order and preparing “confirming orders” to document the purchases after-
the-fact weakens internal controls over expenditures by allowing Court employees to acquire
goods and services without proper authorization. Unlike the procurement regulations
applicable to the Government’s Executive Branch (Title 3 1, Section 234, of the Virgin
Islands Code), the Court’s Property and Procurement Manual does require that purchases be
made “by written order.”

We also found four instances, totaling $8,590, where miscellaneous disbursement vouchers
were used to acquire and pay for personal items, such as savings bonds, photo albums, and
floral arrangements, to be presented to Court employees. In our opinion, except for items

                                              6
presented to employees as part of an established employee incentive awards program, it is
inappropriate to use Government funds for gifts or other presentations to employees or
members of their families. Such presentations should be funded by voluntary contributions
from the Court’s employees.

The Court should establish procedures to require the use and documentation of competitive
procurement practices, control the use of “confirming orders,” and restrict the use of
Government funds for employee-related gifts that are not part of a formal employee incentive
awards program.

Travel Advances

The Court’s Personnel Manual requires that all official travel be authorized in writing on a
Government Transportation Request form and that, upon completion of the authorized travel,
the traveler submit a summary of travel expenses. However, we reviewed documents related
to 354 trips (both within and outside the Virgin Islands) taken by Court employees during
fiscal years 1996 and 1997. We found, for 280 of the 354 trips reviewed, that travel expense
forms had not been prepared and submitted by the travelers. Additionally, 10 travel
advances, totaling $13,100, remained outstanding and had not been accounted for by the
travelers. These conditions occurred because the Court did not adequately monitor travel
expenses and the use of travel advances to ensure that travelers promptly accounted for
advances upon completion of travel.

Further, in 35 instances where travel vouchers were submitted to account for travel expenses,
the travelers took an average of 3 l/2 months after completion of travel to submit the
vouchers. Although the Court’s travel regulations stipulate that employees must submit
travel documents within 60 days (2 months) of completion of travel, Executive
Order 3 lo- 1989 requires that Executive Branch employees submit travel vouchers within 5
days of completion of travel.

The Court should revise its existing procedures to require that employees submit travel
vouchers and account for cash advances within a shorter time period than the
currently-allowed 60 days after completion of travel. The Court should also take action to
require employees to account for the $13,100 in outstanding travel advances disclosed by our
review.

Long-Distance Calls

The Court’s Personnel Manual states that the Court’s telephones may not be used for
personal long-distance calls except when the employee obtains permission and agrees to pay
the long-distance charges promptly. However, we found that individuals were making
personal long-distance calls at the Court’s offices on St. Croix without going through an
operator and without the calls being recorded, authorized, and paid for. We found that it was
difficult to reconcile calls recorded on call slips to calls included on the telephone bills and
that, for May and June 1996,97 personal long-distance calls (cost not determinable) were

                                               7
not reimbursed by the employees. Court officials told us that it was difficult to collect the
amounts due from employees for personal long-distance calls, especially in cases where
employees disputed that they had made the calls or questioned the costs of the calls.

At the Court’s offices on St. Thomas, one employee’s calls totaled $1,600, and the Court had
to obtain a power of attorney to garnish the funds from a lump-sum payment due the
employee. During fiscal years 1996 and 1997, employees in both offices generated more
than $8,000 in personal long-distance calls that were reimbursed to the Government.
However, we could not determine the costs of calls that were not reimbursed because we
could not reconcile call slips to the telephone bills. In our opinion, the Court should
discontinue the practice of allowing employees to use official telephones for personal long-
distance calls except in the event of an emergency. Employees should be encouraged to
obtain telephone calling cards from long-distance carriers to pay the cost of personal long-
distance calls.

Property Management

Although the Court’s Property and Procurement Manual requires that a complete physical
inventory of all capitalized equipment be performed at least once biennially, such inventories
were not performed. To test the accuracy of the Court’s property records, we randomly
selected 209 items of equipment listed in the property records and attempted to locate them.
We were unable to locate 5 items and could not specifically identify 18 other items because
they did not have property identification numbers affixed that would have allowed us to
match them to the property records. We also noted that property identification tags were not
always placed on property in locations where they were visible and easily accessible.
Additionally, the property records needed to be updated to show items that had been
relocated, were damaged, or were disposed of because they were obsolete. We found that
these conditions occurred because responsibility for conducting inventories and updating the
property records had not been delegated by the Court’s Administrator to staff.

We believe that the Court should enforce its property management procedures by assigning
to specific staff the responsibility to maintain accurate property control records, conduct
physical inventories at least biennially, and affix property identification tags to all
Government-owned property.

Recommendations

We recommend that the Presiding Judge of the Territorial Court:

         1. Enforce existing policies and procedures which require that collections and
deposits be reconciled on a daily basis; that such reconciliations be subjected to periodic
independent review to test their accuracy; and that the Court’s cashiers clearly stamp or mark
receipts that have errors with the word “VOID” and account for all receipts, including those
that are voided, in numerical sequence. Additionally, Court officials should attempt to
reconcile the $1,125 in differences between collections and deposits; locate the file copies

                                              8
of the seven missing receipts for collections made on April 30,1997; and provide the cashier
on St. John with a security escort when making the daily evening deposits.

        2. Establish internal policies and procedures to ensure that bail bonds and other
funds held in trust in the Court’s Miscellaneous Account are disbursed to the appropriate
parties in a timely manner upon resolution of the court cases to which the funds pertain.
Also, special efforts should be made to locate the related parties and disburse that portion of
the $130,000 held in the account as of January 1998 which pertains to cases that have already
been finalized. For any portion of the $130,000 that cannot be disbursed because the related
parties cannot be identified or located, the procedures described in Title 28, Chapter 29, of
the Virgin Islands Code concerning unclaimed property should be used to record the
forfeiture of such property to the Government of the Virgin Islands.

        3. Establish internal policies and procedures to ensure that proper segregation of
duties is provided between the individuals responsible for approving expenditures from the
Court’s internal checking accounts and those responsible for issuing checks based on such
approvals and that the internal accounts are used only for the specific purposes for which
each account was established. Additionally, the Miscellaneous, Utility, and Petty Cash
Accounts should be reimbursed for the Court operating and other expenses that were
improperly paid from those accounts, but had not been reimbursed.

        4. Enforce the existing policies and procedures which require the use of competitive
procurements and establish policies and procedures to prohibit the use of “confirming orders”
except in unusual circumstances and with prior written approval by the Court’s Procurement
Officer.

       5. Establish policies and procedures with regard to the authorized purposes for
which the Court’s Petty Cash Account and other available funds can be used. Such policies
and procedures should restrict the use of Government funds for employee-related gifts except
where such gifts are a part of an established employee incentive awards program.

        6. Revise existing policies and procedures to require that Court employees submit
travel vouchers within a reasonable time (such as 10 working days) after completion of travel
and to establish a system for ensuring that all travel advances are properly accounted for,
including the requirement that employees should reimburse the Court for any unused
balances of travel advances. In addition, the employees who have outstanding travel
advances among the $13,100 disclosed by the audit should be required to submit a full
accounting of the use of those advances.

       7. Discontinue the practice of allowing employees to use the Court’s telephones for
personal long-distance calls except in the case of emergency and with prior supervisory
approval.

       8. Enforce the existing property management procedures to ensure that complete and
accurate property control records are maintained, physical inventories of equipment and


                                              9
other personal property are conducted at least biennially, and property identification tags are
affixed to an easily accessible location on all Government-owned property.

Territorial Court of the Virgin Islands Response and Office of Inspector
General Reply

The July 3 1, 1998, response (Appendix 2) to the draft report from the Presiding Judge of the
Territorial Court expressed partial concurrence with Recommendations 1,2,6, and 8 and
nonconcurrence with Recommendations 3, 4, 5, and 7. Based on the response, we have
revised Recommendations 1 and 2 and consider Recommendation 1 resolved and
implemented and Recommendation 2 unresolved. Also based on the response, we consider
Recommendations 3, 4, 5, 7, and 8 unresolved and request additional information for
Recommendation 6 (see Appendix 2).

Recommendation 1. Partial concurrence.

        Territorial Court Response. The Court “only partially agree[d]” with the
recommendation, stating that “existing court policies and procedures already require daily
reconciliation of collections and deposits, subject to periodic review by our Internal
Auditor.” The Court also stated that “the fact that a few voided receipts were not stamped
‘VOID’ was an oversight, which may recur so long as human beings serve as cashiers.”
Further, the Court noted that the seven missing receipts identified in the report had been
located and that a night depository and security escort were provided for the St. John cashier.

In discussing the finding related to the recommendation, the Court explained the record-
keeping error that resulted in a reported difference of $450 between collections and deposits
and then stated that the two examples cited in the report of differences between recorded
collections and deposits “cannot justify. . . a sweeping conclusion” that “differences between
collections and deposits were not reconciled.” The Court also stated that the seven receipts
for April 30, 1997, that could not be located by the auditors “are on file.” The Court also
stated that “in keeping with the [Government] Auditing Standards, the properly safeguarded
collection area in St. Thomas should have been credited by the auditor.”

        Office of Inspector General Reply. Based on the response from the Court, we have
revised the recommendation to state that the Court should “enforce existing policies and
procedures” concerning the reconciliation of daily collections and deposits and periodic
supervisory reviews of the reconciliations. Further, we consider resolved and implemented
the portions of the recommendation concerning the need to locate the seven missing receipts
and to provide a security escort for the St. John cashier. However, we disagree that the
finding made an unjustified “sweeping conclusion” concerning differences between recorded
collections and deposits. The finding clearly states that “we found two instances” that had
differences totaling $1,125. Although $1,125 was a relatively small amount compared with
the more than $1 million collected annually by the Court, we do not believe that this was a
small discrepancy. Additionally, even though the Court was able to reconcile the $450
difference related to one deposit and to locate the seven cashier receipts that were missing

                                              10
at the time of the audit, these discrepancies existed at the time of the audit. Further, based
on the Court’s statement that the Court could not identify the transaction related to the
additional $675 difference between collections and deposits, we will provide details of that
transaction to the Court. Lastly, although the discrepancies discussed in the section of the
report “Revenue Collections” were relatively minor, they pointed out weaknesses in the
Court’s internal control procedures that could provide the opportunity for more significant
errors in the future. However, because the Court has essentially taken the recommended
actions, we consider the revised recommendation resolved and implemented. With regard
to the Court’s statement that the draft report did not comment on the adequate safeguarding
of the collection area on St. Thomas, we revised that information in the section “Revenue
Collection.”

Recommendation 2. Partial concurrence.

        Territorial Court Response. The Court “only agree[d], in part” with the
recommendation, stating that “there is no lawful basis for the alleged $130,000 in returnable
bail bonds.” The Court also stated that the finding “is a case of unnecessary sensationalism
. . . which clearly violates the unclaimed property laws.” Further, the Court stated that
“refund applications which follow the [court] orders result in the prompt return of cash bail
bonds; however, where no applications are filed, refunds are delayed pending review of the
record.”

        Office of Inspector General Reply. We disagree with the Court for the following
reasons: (1) we found no evidence that the Court had followed the procedures contained in
Title 28, Chapter 29, of the Virgin Islands Code to have unclaimed bail bonds forfeited to
the Government, and (2) Court officials told us, during the audit, that the disposition ofbail
bonds was not always cleared in a timely manner because of the time-consuming work
necessary to review the applicable Court records. With regard to the procedure for forfeiture
of unclaimed property, Title 28, Section 664, of the Code states:

       Intangible property [defined as including “monies” and “checks”] held for the
       owner by a court, the Government of the Virgin Islands, its agencies and
       instrumentalities, a public corporation, or public authority which remains
       unclaimed by the owner for more than one (1) year after becoming payable
       or distributable is presumed abandoned.

However, Section 668 states:

       (a) A person holding property, tangible or intangible, presumed abandoned
       and subject to custody as unclaimed property under this chapter shall report
       to the Administrator [defined as the Lieutenant Governor] concerning the
       property. . . .

       (b) The report must be verified and must include: (1) except with respect to
       travelers checks and money orders, the name, if known, and last known


                                              11
        address, if any, of each person appearing from the records of the holder to be
        the owner of property of the value of $25 or more presumed abandoned under
        this chapter; . . .

Additionally, Section 669 states:

        (a) The Administrator [the Lieutenant Governor] shall cause a notice to be
        published not later than March 1 . . . of the year immediately following the
        report required by section 668 of this chapter at least once a week for two (2)
        consecutive weeks in a newspaper of general circulation in the United States
        Virgin Islands.

During the audit, we were not provided any documentation to indicate that the Court had
complied with these procedures. In fact, at the May 28, 1998, exit conference on the
preliminary draft of this report, the Presiding Judge suggested that the Court, as an
intermediary step, publish a list of unclaimed bail bonds in a local newspaper. Therefore,
we believe that the finding is accurate and the recommendation valid. However, we have
revised the recommendation to incorporate reference to the procedures contained in Title 28,
Chapter 29, of the Virgin Islands with regard to unclaimed property to clarify the necessary
corrective actions, and the Court is requested to reconsider its response to the
recommendation, which is unresolved.

Recommendation 3. Nonconcurrence.

         Territorial Court Response. In its response, the Court said that it “reject[ed] this
recommendation as clearly erroneous and inappropriate,” stating elsewhere in the response
that “the court is authorized by law to utilize any suitable means to effectuate its jurisdiction,
and to transfer funds between accounts to maximize the quality of judicial services rendered
to the public, so long as the limits of the court’s appropriations are not exceeded.” The Court
further stated that questioned expenditures of $47,000 from the Court’s Miscellaneous
Account were for legitimate Court purposes and were not in excess of the Court’s
appropriations but were made because of the “failure of the [Government’s] executive branch
to release the court’s funds to pay its vendors” and that “it was essential for the work of the
court to continue. . . and the entire $47,000 [was] reimbursed to the Miscellaneous Account
after the crisis abated.” The Court also stated that it used the $23,000 from the Court’s
Utility Account on the same basis as the $47,000 borrowed from the Miscellaneous Account
and that the $23,000 had already been reimbursed.

         Office of Inspector General Reply. Although we acknowledge the Court’s use of
the Miscellaneous Account to pay legitimate Court expenditures during a time of financial
crisis, we do not believe that this action was appropriate because the Miscellaneous Account
is the primary account used by the Court to deposit bail bonds and other amounts that are
held in trust for participants in Court cases pending final disposition of those cases.
Therefore, the funds in the Miscellaneous Account are essentially not the Court’s or the
Government’s funds to be used for such purposes. In addition, although the Court stated that


                                                12
the entire $47,000 had been reimbursed to the Miscellaneous Account, we believe that the
finding and recommendation are accurate for the following reasons: (1) the $47,000 was
outstanding at the time of the audit (which was completed in January 1998), and (2) the
Court Administrator, during the May 28, 1998, exit meeting on the preliminary draft of this
report, stated that as of that date, $27,000 had been reimbursed to the Miscellaneous Account
while the remaining $20,000 would be reimbursed within a week. As such, the full
reimbursement occurred almost 6 months after completion of the fieldwork. Regarding the
$23,000 used from the Utility Account for nonutility expenses, this amount had not been
reimbursed to the Utility Account at the time of the audit and at the time of the May 28,
1998, exit meeting.

Recommendation 4. Nonconcurrence.

         Territorial Court Response. The Court stated, “At the exit conference, we made
it clear that the use of ‘confirming orders’ is not illegal, and that they will be used whenever
it is necessary to insure the continuation ofjudicial services to the public.” In discussing the
finding on which the recommendation is based, the Court also stated, “The financial crisis
created by the central government resulted in an almost complete refusal of vendors to do
business with any local government agency, including the court.” Therefore, according to
the Court,“invitations for bids, competitive negotiations, and purchase orders were being
rejected.” The Court also stated, “The supplying of goods and services were denied unless
and until payment was received in full and, in many instances, in advance, thereby triggering
the use of confirming orders to prevent disruption of our judicial services.” Further, the
Court stated that “not one of the 347 procurement documents [reviewed by the auditors] was
without proper authorization, and the auditor has shown none. The mere reference to
‘generally accepted business practice’ cannot and does not vitiate the authorization granted
by the Court’s manual.”

        Office of Inspector General Reply. The Court’s statement that Court officials
stated during the exit conference that “confirming orders are not illegal” is not accurate
because no specific mention of “confirming orders” was made during the May 28,1998, exit
conference. More importantly, the response does not address the fact that the use of
“confirming orders” makes ineffective one of the most important internal controls over any
organization’s procurement process -- the written authorization of purchases by an
appropriate official. A “confirming order” is used when an employee of an organization, in
this case the Court, goes to a vendor and purchases goods or services without a written
purchase order or other authorizing document. The purchase order is prepared after the fact
to confirm the verbal purchase commitment that was previously made. By allowing this
practice the Court significantly increases the risk that an employee may improperly acquire
goods or services for personal use without the knowledge of appropriate Court officials.
This internal control weakness is recognized in the procurement regulations (Title 3 1,
Chapter 23, of the Virgin Islands Code) that apply to the Executive Branch of the
Government, which require that all purchases be made by written order. We believe that the
Court’s internal procurement regulations should have the same requirement. Regarding the
use of competitive procurement procedures, we acknowledge that the Court may have


                                              13
 experienced difficulties in finding vendors that were willing to conduct business with a
Governmental agency. However, the Court, in those instances, should have followed
 generally accepted business practice (as required for the Executive Branch by the Virgin
Islands Code) of documenting such instances in the appropriate procurement files as
justification for not using competitive procurement. Therefore, the recommendation remains
valid. Lastly, the Court’s statement that “not one of the 347 procurement documents was
without proper authorization” does not address the audit finding. Specifically, in the finding,
we state that 60 of the 347 procurement actions reviewed were made using confirming
orders, not that they were made “without proper authorization.” The purpose of the
confirming orders was to provide authorization after the fact.

Recommendation 5. Nonconcurrence.

        Territorial Court Response. In its response, the Court “reject[ed]” this
recommendation, stating that “the record substantiates the fact that the court has an
established ‘employee-incentive awards program.“’ With regard to the finding on which the
recommendation was based, the Court stated that $752 from the Petty Cash Account was
used for “employee incentive awards and family bereavement wreaths” and that “this court
intends to continue to utilize the Petty Cash Account for such minor expenses.” The Court
also stated that the expenditure of $8,590 through purchase orders for savings bonds, photo
albums, floral arrangements, and other similar items was part of an “employee-incentive
awards program.”

         Office of Inspector General Reply. Although the Presiding Judge stated, during the
May 28, 1998, exit meeting, that such items were given to employees as “incentives” to
make up for the low salaries and lack of advancement opportunities, we were not provided
any documentation during the audit and nothing was mentioned by Court officials during the
May 28, 1998, exit meeting to support the statement in the response that the Court had an
established employee incentive awards program. Additionally, the Court’s Personnel
Manual does not contain any reference to an employee incentive awards program.
Regardless of whether or not such a program exists, we believe that the recommendation to
establish formal policies as to what types of expenditures are legitimate items to be paid from
the Court’s Petty Cash Account and to restrict the use of Government funds for gifts to
employees except where such gifts are part of a formal employee incentive awards program
is valid. In our opinion, an employee incentive awards program should be based on written
criteria that define the employee actions or occasions which would warrant the receipt of an
award, the types and value of awards that can be presented to employees, the procedures to
be used to nominate employees for awards, and the bases upon which nominees would be
judged and selected for awards.

Recommendation 6. Partial concurrence.

       Territorial Court Response. The Court said that it “agree[d] with the portion ofthis
recommendation regarding the reduction of the time allowed for submission of travel
vouchers” but that “it is already the policy of the court that all travel advances be properly


                                              14
accounted for,” including reimbursement for unused amounts. In discussing the finding on
which the recommendation was based, the Court stated that “the initial finding by the auditor
regarding the filing of ‘travel expense forms’ is very misleading” because “where no travel
expenses are incurred there is no need to file an expense form.” The Court also stated that
in 1 of the 10 cases of outstanding travel advances cited in the finding, the Department of
Finance canceled the travel advance check because it was not prepared prior to the date of
travel and that the other nine travelers “have now filed their travel vouchers.” The Court
further stated that it agreed to “review our 60-day period for the submission of travel
documents, and to consider its reduction.”

         Office of Inspector General Reply. Section 1 O(b) of the Court’s Travel Regulations
(which are contained in the Court’s Personnel Manual), states, “The Travel Expense Claim
Form shall be used for the reporting and record-keeping of necessary travel information and
expenditures and for claiming refunds or returning excess funds.” This provision of the
Travel Regulations suggests to us that the Travel Expense Claim Form, which includes
sections for recording the dates and route of travel, actual expenses and/or per diem
allowances and for the reconciliation of travel advances, is intended to provide a permanent
record of official travel. The Form also provides space for indicating the corresponding
Government Transportation Request number, which would allow the Form to be used to
verify that airline tickets purchased through Government Transportation Requests were used
for official purposes. Therefore, the statement “where no travel expenses are incurred there
is no need to file an expense form” is not accurate. With regard to the 10 outstanding travel
advances cited in the finding, Court officials did not tell us or provide any supporting
documentation during the audit that 1 of the travel advances had subsequently been canceled.
Additionally, even though the other nine travelers filed their travel vouchers subsequent to
our audit, the finding and the recommendation were based on conditions that existed at the
time of the audit.

Recommendation 7. Nonconcurrence.

        Territorial Court Response. The Court stated, “The existing policy of the court
already limits the use of the Court’s telephone for personal long distance calls, except in
emergencies of staff employees, and except for supervisory employees.” The Court also
stated, “Non-supervisory employees are authorized such use in emergency cases only, and
in that even permission must be obtained in advance and payment must be made promptly.”
The Court also acknowledges that the practice used at the Court’s office on St. Croix did not
adhere to established policy and that “the costs for all personal calls are being collected.”
However, the Court further stated that the “‘personal-calls’ privilege is a convenience and
a morale booster” and that it “will not discontinue the practice as recommended by the
auditor.” The Court further stated, “Instead, we will more closely monitor [the practice] to
minimize errors or abuse.”

        Office of Inspector General Reply. Because of the added supervisory oversight and
work load related to tracking personal long distance calls and the cost of processing and
collecting the appropriate charges from employees, as well as the availability of long


                                             15
distance calling cards, we believe that the Court’s position on this matter results in an
unwarranted use of Government resources. We continue to believe that the Court should
prohibit the use of official telephones for personal long distance calls except for emergencies
and those with prior supervisory approval.

Recommendation 8. Partial concurrence.

        Territorial Court Response. The Court said that it disagreed with the portion of the
recommendation concerning the placement of property identification tags in an easily
accessible location on all Government-owned property. In discussing the finding, the Court
stated that it “consider[s] these findings to be substantially without merit.” Specifically, the
Court stated that Court officials were able to locate five items of equipment that the auditors
could not locate, that “the description in the inventory is sufficient for the auditor to identify
such property” without access to a property identification number, and that “generally
accepted security policies require the placement of ID [identification] tags in inconspicuous
places on the property.”

         Office of Inspector General Reply. Although the Court was subsequently able to
locate five items of equipment which could not be located by the auditors, the items could
not be located at the time of the audit. Additionally, without verification of property
identification numbers, the auditors could not be assured which, of similar items (for
example, similar chairs, desks, or filing cabinets) were the specific items included in the
audit sample. Therefore, the Court’s statement that “the description in the inventory is
sufficient for the auditor to identify such property” is not valid, and the Court has not
satisfactorily identified the items of equipment that are cited in the finding. Lastly, the
Court’s Property and Procurement Manual does not address the location of property
identification tags, and the Court did not provide any documentation for the “generally
accepted security policies” cited in the response. However, even if “security policies” exist
that require property identification tags to be placed in inconspicuous places, such locations
can still be easily accessible, such as on the bottom of chair seats and table tops or inside
desk and filing cabinet drawers, to facilitate the annual physical inventories and
reconciliations to property records.

General Comments on Audit Report

The Territorial Court provided additional comments on the report. The Court’s comments
and our reply are as follows:

        Territorial Court Response. The response stated, “While we agree that the
preliminary draft of the audit report was fully and amicably discussed at the exit conference
on May 28,1998, we did not concur with the findings and recommendations.” Based on the
specific disagreements with the audit findings and recommendations, the Court also
disagreed with the monetary amounts shown in Appendix 1 of the report. Additionally, the
response states that since the audit was conducted in accordance with the “Government


                                               16
Auditing Standards,“issued by the Comptroller General of the United States, “both positive
and negative findings should have been reported.”

        Office of Inspector General Reply. We found that the Court’s July 28, 1998,
response to the draft report was completely different in its receptiveness, responsiveness, and
overall tone than the comments of Court officials at the exit conference, who included the
Presiding Judge, the Court Administrator, the Court’s General Counsel, and the Clerk of the
Court. Office of Inspector General representatives in attendance were the Audit Director,
the Senior Auditor, and two of the three auditors who conducted the on-site audit work. The
Presiding Judge, in opening the meeting, stated that the audit had been a “pleasant situation”
for Court officials and employees and that a “very good rapport” had been maintained
between Court and Office of Inspector General staff throughout the audit. He also stated that
the preliminary draft report was “fair” and that he was overall “pleased” with the report. In
response, the Audit Director stated that the entire audit team was likewise pleased with the
cooperation that they received during the audit. He also commented that the audit was one
of the “cleanest” he had been involved with in recent years and that the findings discussed
in the preliminary draft report were relatively minor issues.

Throughout the discussion that followed, which focused on a page-by-page review of the
report’s contents, Court officials expressed general agreement with the details in the findings
and brought to the auditors’ attention any circumstances that required the Court to take
actions. In specifically discussing the audit recommendations, the Presiding Judge expressed
the sentiment that the recommendations were fair and were actions that the Court could
accomplish. However, the Court’s July 28, 1998, response to the draft report was contrary
to what was discussed at the exit conference and essentially disagreed with the deficiencies
identified in the audit report.

With regard to the Court’s reference to the “Government Auditing Standards,” paragraphs
7.43 and 7.44 of the “Standards” state:

        Auditors should report noteworthy accomplishments, particularly when
        management improvements in one area may be applicable elsewhere.

        Noteworthy management accomplishments identified during the audit, which
        were within the scone of the audit, should be included in the audit report
        along with deficiencies. Such information provides a more fair presentation
        of the situation by providing appropriate balance to the report. In addition,
        inclusion of such accomplishments may lead to improved performance by
        other government organizations that read the report. [Emphasis added.]

The first sentence of the “Results of Audit” section of the report states, “The Territorial Court
has made improvements since our 1990 audit report in carrying out its administrative
functions, primarily with regard to controlling overtime.” Although the Court may have
produced significant accomplishments in its judicial activities and programs, those areas
were not within the scope of our audit, which covered the administrative activities of the


                                               17
Court. Therefore, we were not in a position to comment positively or negatively on the
Court’s judicial or other nonadministrative activities. We believe that on an overall basis,
the report accurately presents the results of our audit, which, as the Auditor Director stated
to Court officials at the exit meeting, reflected relatively minor deficiencies that could be
corrected by the Court with a minimum of effort.

Lastly, although the Court disagreed with the monetary amounts presented in Appendix 1
of the report, it did not provide information regarding what the monetary amounts should be.

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by October 9, 1998. The response should be addressed to our Caribbean Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00804. The response should
provide the information requested in Appendix 3.

We appreciate the assistance of the staff of the Territorial Court in the conduct of our audit.

                                                Sincerely,



                                               Robert J. Williams
                                               Assistant Inspector General
                                                 for Audits




                                              18
                                                          APPENDIX 1 ,



                CLASSIFICATION OF MONETARY AMOUNTS


                                           Funds To
                                           Be Put To    Questioned
             Finding Areas                Better Use*    costs*

Administrative Functions

    Internal Accounts
       Undisbursed Bail Bonds              $130,000
       Questionable Expenditures
          Miscellaneous Account                           $47,000
          Utility Account                                  23,000
          Petty Cash Account                                  752

    Procurement
       Questionable Expenditures                            8,590

    Travel Advances
       Outstanding Travel Advances           13,100

        Total                              $143,100       $79,342




*Amounts represent local funds.



                                     19
                                                                                  APPEli3IX 2
                                                                                  Page 1 of 8


                      TERRITORIAL COURT OF THE VIRGIN ISLANDS

  CHAMBERS OF                                                                          P.O. BOX 7603
VERNE A. HODGE                                                                       CHARLO’ITE AMALIE
PRESIDING JUDGE                                                                     ST. THOMAS, V.I. 00801

                                             (809) 774-7674
                                  e-mail address: chiefhank@tcourt.gov.vi




      July 28, 1998


                                  DRAFT AUDlT RESPONSE

      Honorable Robert J. Williams
      Acting Inspector General
      U.S. Department of the Interior
      Caribbean Region
      Room 207, Federal Building
      St. Thomas, Virgin Islands 0080

      Subject: Draft Audit Report on A                     Functions, Territorial Court


      Dear Mr. Williams:

      In response to the Draft Audit Report dated June 2, 7998, I submit, on behalf
      of the Territorial Court, the following agreements, objectionqand comments
      to the proposed audit findings and recommendations:

            A. Scope and Standard of Review
                                                    4
             The audit was required to be conducted%&ccordance with the “Govern-
      ment Auditing Standards” issued by the .Co~&$l-& General of the United States.
      Thus, both positive and negative findirigs;$bqd”have been reported. We were
      therefore disappointed to note that ex&pt!& the improvement in controlling
      overtime, no other accomplishments of tie court have been cited. Nevertheless,
      we comend the auditors for their cooperative attitude which insured an amicable
      relationship with our employees throughout the audit.

            B. Results of Audit

             The “Results of Audit” specifically addressed four areas of review - revenue
      collections, procurement, expenditure control, and property management - and we
      hereby respond to them, seriatim:




                                                 20
                                                                       APPENDIX 2
                                                                       Page 2 of 8


Hon. Robert J. Williams                                                           -2-
July 28, 1998

       I. Revenue Collections

           a. Cashiers Offices

           (I) We disagree with the assertion that “differences between collections
and deposits were not reconciled.” In at-t         to justify this claim the auditor
contends that the amounts shown                      sit slips and the amounts on
the daily receipts were different on                   Specifically, the auditor
alleges a collection of $25.00 on tha             deposit of $475.00, and states
“we were unable to determine the so               additional $450.00 that was
deposited. ”

            Our review of the record discloses that the source of the $450.00 is
traffic fines collected on that traffic hearing date for deposit to the Road Fund.
The additional $25.00, collected on that same date for a criminal case, was to be
deposited to a separate fund, but was erroneously included in the Road Fund
deposit. It was in attempting to correct this error that the document showing a
separate $25.00 was prepared. This error cannot justify such a sweeping conclu-
sion. The auditor referred to two instances totalling $1 ,I 25 but only gave details
regarding the aforesaid $475.00. Without more specific information we are unable
to address the other instance allegedly needing reconciliation. Nevertheless, it is
obvious that such minor alleged discrepancies, in the face of the volume of funds       ,
handled by our cashier’s throughout the two-year audit period, do not warrant the
audit finding that “collections and deposits were not reconciled” when, in fact,
they are reconciled daily.

         Moreover, the auditor referred to seven missing cashier receipts for April
30, 1997. Our review disclosed that copies of all seven receipts are on file.
Those receipts are Numbers 266903 to 266908, totalling $200.00 in traffic fines
and costs, and copies are attached hereto a          1.

          (2) Regarding the physical                ctions, we agree with the
auditor’s finding that the St. Croix c             should be locked and entry
restricted, and we appreciate the ac                that the area was immediately
secured and an enforcing memorand                   e Assistant Court Adminis-
trator. We do believe, however, that in keeping with the Auditing Standards, the
properly safeguarded collection area in St. Thomas should have been credited by
the auditor.

          (3) Regarding the court offices on St. John, we agree with the auditor
regarding the regular availability of a night deposit bag. We have provided for
security escorts, have entered into a Night Depository Service Agreement with
Chase Manhattan Bank, and have implemented the night depository system in St.
John.


                                      21
Hon. Robert 3. Williams                                                        -3-
July 28, 1998

       b. Internal Checking Accounts

       (I) Miscellaneous Acccount - The allegation that bail bonds totalling
$130,00O,relating as far back as 35 y           s payable by the court is contrary to
law and constitutes unnecessary sensa              At the exit conference the
auditors were advised of the uncl                 laws that forfeit such abandoned
property. Nevertheless, with tot               or the law, the auditor erroneously
adds $44,916 from a 1963 list              6 from a- 1980 list, thereby arriving at
the unenforceable sum of $130,           nded to $130,000). Clearly, there is no
merit to this contention.

        The allegations that the court improperly used $47,000 from the Miscellane-
ous Account and that these expenditures were not detected are both false. The
court is authorized by law to utilize any suitable means to effectuate its jurisdic-
tion, and to transfer funds between accounts to maximize the quality of judicial
services rendered to the public, so long as the limits of the court’s appropriations
are not exceeded. Here, it is obvious that the use of the $47,000 from the Miscel-
laneous Account for travel ($27,500), tuition ($2,000), and utilities ($20,000) was
for legitimate court purposes and was not in excess of the court’s appropriations.
Indeed, it was the failure of the executive branch to release the court’s funds to
pay its vendors that led to a constitutional crisis and a threatened legal challenge
against the Governor, the Budget Director, and the Commissioner of Finance.
While the crisis existed, it was essential for the work of the court to continue;
therefore, the expenditures were authorized by the undersigned, not by the certi-
fying official, and the entire $47,000 were reimbursed to the Miscellaneous
Account after the crisis abated. Accordingly, the court should be complimented
for its positive action during the crisis instead of being criticized for it.

       (2) Utility Account - This is another account from which the court is author-
ized to utilize funds for other lawful judicial obligations. Thus, it is erroneous for
the auditor to imply that the expenditures were improper. As with the Miscellane-
ous Account, the reasons are valid, the expendi I’. s were authorized by the under-
                                                    PM”
signed, and the $23,000 have already been fu&+einibursed to the Utility Account.
                                               $$&<;:
       (3) Petty Cash Account - The use @$7q over a two-year period for
employee incentive awards and family bere*av&nent wreaths was approved by the
the undersigned and is authorized by law, a%xplained above. This amount is
quite negligible and merely supplemented the personal contributions of court




                                                22
                                                                          APPE:JSIX 2
                                                                          Page 4 of 8



Hon. Robert J. Williams                                                   -4-
July 28, 1998

employees. It is quite presumptuous of the auditor to assume that these expenses
were in lieu of employee donations. This court intends to continue to utilize the
Petty Cash Account for such minor expenses. Since all expenses are fully dis-
closed, authorized, and replenished on a re      asis, there is no need for the
promulgation of additional petty cash

       2. Procurement

       The auditor accurately quoted the competitive provision of the court’s
Property and Procurement manual; however, the significance of the phrase “when-
ever feasible and warranted” was either overlooked or ignored. At no time in the
history of this court was the phrase more essential than during the period of this
audit. The financial crisis created by the central government resulted in an almost
complete refusal of vendors to do business with any local government agency,
including the court. Thus, invitations for bids, competitive negotiations, and
purchase orders were being rejected. The supplying of goods and services were
denied unless and until payment was received in full and, in many instances, in
advance, thereby triggering the use of confirming orders to prevent disruption of
our judicial services.

       Under such circumstances, the undersigned found the use of the usual com-
petitive process to be both “unfeasible” and “unwarranted”. Therefore, the pro-
curement of the goods and services in question were consistent with the excep-
tion authorized by the procurement manual. Indeed, not one of the 347 pro-
curement documents was without proper authorization, and the auditor has shown
none. The mere reference to “generally accepted business practices” cannot and
does not vitiate the authorization granted by the Court’s manual.

       Moreover, the record substantiates the fact that the court has an established
“employee-incentive awards program.”                   includes awards for three or
less absences during the year; years o                 s in five-year intervals; and
special awards for outstanding serv                 hotos, Certificates, Plaques, and
U.S. Savings Bonds in varying deno                 presented at the court’s annual
Christmas party, and at other speci          ns. The use of Miscellaneous Dis-
bursement Vouchers to pay for such items under the employee incentive program
is clearly authorized by law. We therefore must disagree with the auditor’s char-
acterization of these expenditures as “inappropriate.”

       3. Expenditure Control

          (a) Travel Advances - The initial finding by the auditor regarding the filing
of “travel expense forms” is very misleading. As we explained at the exit confer-
ence, where no travel expenses are incurred there is no need to file an expense



                                           23
                                                                        APk’PL?‘NZ_ x 2
                                                                        Page 5 of 8




Hon. Robert J Williams                                                    -5-
July 28, 1998


form. We made it clear that the vast majority of the 354 trips referred to were
within the Virgin Islands, and in those c a s e -& dVance is paid and no expenses
are charged to the court. Thus, th                   y documents are the GTR for
the travel ticket, and the used ticke                 rted and filed to verify that the
trip was taken. We therefore objet                 ge of the “within the V.I.” and the
“outside the V.I.“’ travel documents.

         The auditor alleges that ten (IO) travel advances for off-island travel
remained outstanding; however, one of the travelers did not receive a travel
advance because the Department of Finance did not process the check before the
trip and cancelled the advance after the travel date. It is improper for the auditor
to charge that a travel advance was received when there is no evidence that a
check was negotiated. However, we do agree that we should have more ade-
quately monitored the other nine travelers, all of whom have now filed their
travel vouchers. Moreover, while we consider the five-day deadline of the
Executive Branch to be unrealistic, we agree to review our 60-day period for the
submission of travel documents, and to consider its reduction.

         (b) Long-Distance Calls - the policy of this court authorizes supervisors to
use official telephones for personal long-distance calls as a perquisite of office.
Non-supervisory employees are authorized such use in emergency cases only, and
in that event permission must be obtained in advance and payment must be made
promptly. In furtherance of this policy all non-supervisory phones are toll-barred
and no long-distance calls may be made from them. In emergencies, non-super-
visory personnel must get permission and process the calls through the switch-
board operator. The erroneous practice on St. Croix, as cited by the auditor, was
immediately corrected by the Assistant Court Administrator, and the costs for all
personal calls are being collected.

         When funds are not available for s           eases or promotions, an admin-
istrator must seek “in-kind” benefits                 he “personal-calls” privilege is
a convenience and a morale booster                   e court nothing, since all
personal calls must be paid for. No                ect, but the benefits of such a
policy far outweigh the detriment pre           y any periodic breach of the policy.
Thus, we will not discontinue the practice as recommended by the auditor.
Instead, we will more closely monitor it to minimize errors or abuse.




                                       24
                                                                           APPETJDIX 2
                                                                           Page 6 of 8



Hon. Robert J. Williams                                                     -6-
July 28, 1998


       4. Property Management

        We consider these findin                     ntialfy without merit. First, the five
(5) items of property which the audito              ot locate have all been identified
and accounted for, as follows:

               Item                                     Location

  1. IBM Wheelwriter (St. X)                   Maintenance Storage
  2. Keyboard (not computer)                   Computer Room
  3. TV Cart                                   Destroyed in Hurricane Marilyn
                                               (See attached Certificate of
                                               Loss or Damage - Exhibit 2)
  4. Chair (jungle print)                  Courtroom 5 (Jury Box)
  5. Vacuum Cleaner                        Janitor’s Closet, 2nd Floor,
                                              South Wing

         Second, even though certain property ID numbers may have been obliter-
ated, torn, or stripped, the description in the inventory is sufficient for the auditor
to identity such property and account for their existence and location. Thus, the
allegation that eighteen (18) items of property could not be specifially identified is
erroneous.

        Third, generally accepted security policies require the placement of ID tags
in inconspicuous places on the property. Therefore, the auditor’s contention that
ID tags should be placed in visible and easil     essible areas of the property is
specious. We explained our position at t            nference, and we stand by it. It
is obvious that in the face of 57 va                ng our Property Manager, we
have accounted for every single pie                   sted by the auditor. Under
such circumstances, the overworke                     ff of this court deserves praise,
not discouragement.

       C. Recommendations

           1. We only partially agree with this recommendation because existing
court policies and procedures already require the daily reconciliation of collections
and deposits, subject to periodic review by our Internal Auditor. The fact that a
few voided receipts were not stamped “VOID” was an oversight, which may recur                 x
so long as human beings serve as cashiers. As explained in Section B(l)(a) above,




                                          25
                                                                        APPZDIX 2
                                                                        Page 7 of 8




Hon. Robert J. Williams                                                  -7-
July 28, 1998

copies of the seven (7) missing receipts are on file, and night depository as well as
security escort are provided for the St. John cashier.

           2. We only agree, in part, with this recommendation because there
is no lawful basis for the alleged $130,000 in returnable bail bonds. This is a case
of unnecessary sensationalism in               ck to 1963, which clearly violates the
unclaimed propery laws, purs                      h abandoned property are forfeited
to the government. With res                      nt amounts, the record shows that
they are controlled by court or                n not appealed or forfeited, the vast
majority are processed on a regu      asis through the established procedures for
notifying parties and attorneys of the exoneration orders. Refund applications
which follow the orders result in the prompt return of cash bail bonds; however,
where no applications are filed, refunds are delayed pending review of the record.

         3. For the reasons stated in Section B(l)(b) above, we reject this
recommendation as clearly erroneous and inappropriate.

            4. At the exit conference, we made it clear that the use of “confirming
orders” is not illegal, and that they will be used whenever it is necessary to insure
the continuation of judicial services to the public. The proper exercise of adminis-
strative responsibilities compels the recognition of substance over form, and reality
over bureaucracy. When all factors are considered, it becomes obvious that this
recommendation disregards the unusual circumstances which exist, and it therefore
cannot be accepted.

         5. For the reasons stated in Section            above, we reject this
recommendation as clearly erroneous and

           6. We agree with the
reduction of the time allowed for
the policy of the court that all
reimbursement for unused amounts.

           7. The existing policy of the court already limits the use of the Court’s
telephone for personal long distance calls, except in emergencies of staff
employees, and except for supervisory employees, as previously explained herein.




                                         26
   Hon. Robert J. Williams                                                  -8-
   July 28, 1998

   The violation of the policy that occurred in St. Croix has already been corrected.
   Accordingly, to the extent that this recommendation suggests a change in policy
   as to supervisory employees, we disagree.

             8. For the reasons                          ) above, we agree that with
   adequate staffing the enforcement \              this  recommendation can be
   implemented on a regular                                   with the property
   identification portion, as explained at the exit conference and in the foregoing
   sections.

          D. Comments and Appendix I

          While we agree that the preliminary draft of the audit report was fully
   and amicably discussed at the exit conference on May 28, 1998, we did not con-
   cur with all the findings and recommendations. We did compliment the auditors
   for their cooperation during the audit, and we did advise them that certain
   corrective actions had been taken and will continue to be taken where appropriate.
   However, as the preceding responses show, we agreed with some recommenda-
   tions and disagreed with others. As a result of our objections, we contend that
   the monetary amounts shown on Appendix I are erroneous, and should be
   corrected.

           In conclusion, we extend our gratitude to the entire audit team for their
   patience and indulgence as we tried to operate in the midst of the worst financial
   crisis facing the local government, which           s court. We also thank Mr.
   Arnold E. vanBeverhoudt, Jr., Director              rea Audits, for his consideration
   in granting our request for a one-w                   file this draft response to the
   draft audit report.

        If there are any questions regarding this response, please contact Mrs. Viola
   E. Smith, Court AdmZ%trator, at (340) 774-6680, Ext. 6409.
                                I’
                            /
                            /
   Sine   I ,        , /”

              U
          y;yj . ,,/#.&
                      ________-_._-_
     I/
/err& . 0
Presiding Judge/




                                           27
                                                                 APPENDIX        3   ’



    STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status                Action Required

          1              Implemented.   No further action is required.

   2,3,4, $7, and 8      Unresolved.    Reconsider the recommendations,
                                        and provide a response to each
                                        recommendation indicating
                                        concurrence or nonconcurrence. If
                                        concurrence is indicated, provide an
                                        action plan that includes a target
                                        date and title of the official
                                        responsible for implementation. If
                                        nonconcurrence is indicated, provide
                                        reasons for the nonconcurrence.

          6              Management     Provide a target date and title of the
                         concurs;       official responsible for revising the
                         additional     travel policies and procedures to
                         information    provide a shorter time frame in
                         needed.        which travel vouchers should be
                                        filed.




                                 28
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:


                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D.C. 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Rtion

U.S. Department of the Interior                        (703) 235-9221
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific RePion

U.S. Department of the Interior                        (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
I




    Toll Free Numbers:
     l-800-424-5081
     TDD l-800-354-0996

    FI’S/Commercial Numbers:
     (202) 208-5300
     TDD (202) 208-2420



    1849 C Street, N.W.
